           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Notification of Audit —                       Date:    January 27, 2005
           Financial Policies and Procedures at the National
           Crash and Analysis Center
           Project Number: 05F3016F000
  From:    Theodore Alves                                          Reply to
                                                                   Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits
    To:    Federal Highway Administrator


           The Office of Inspector General will perform an audit of George Washington
           University’s proposed corrective actions taken to strengthen internal controls over
           cooperative agreements performed at the National Crash and Analysis Center.
           Since 1995, the Federal Highway Administration and National Highway Traffic
           and Safety Administration have provided more than $23 million in funding to
           George Washington University for the National Crash Analysis Center. In a
           June 14, 2004 letter, the University notified the Federal Highway Administration
           of serious financial misconduct and conflicts of interest that resulted in
           overcharges and unsupported billings on the current cooperative agreement,
           DTFH61-02-X-00076. The Federal Highway Administration suspended the
           cooperative agreement and requested that George Washington University provide
           a corrective action plan to strengthen its financial management controls to prevent
           similar problems from occurring in the future.

           Our audit objective is to determine whether George Washington University’s
           corrective actions and revised financial policies provide adequate internal
           controls to prevent improper payments on cooperative agreements administered
           by the Federal Highway Administration and other Federal agencies. We also plan
           to review the Federal Highway Administration’s oversight of the cooperative
           agreements with George Washington University.

           We plan to start this audit in January 2005. We will contact your audit liaison to
           schedule an entrance conference date to discuss the planned audit. For any
                                                                       2


additional information, please call Terrence Letko, Program Director, at
(202) 366-9917 or Ken Prather, Project Manager, at (202) 366-2985.

                                      #

cc: Director, Office of Administration
    Director, Office of Acquisition Management
    Martin Gertel, M-1
    Cynthia Thornton, HAIM-13
